LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

December 5, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-337: REGENTS OF THE UNIVERSITY OF MINNESOTA V. LSI CORPORATION,
ET AL.
Dear Sir or Madam:
I hereby certify that at the request of counsel for Respondents Ericsson Inc. and
Telefonaktiebolaget LM Ericsson, on December 5, 2019, I caused service to be made
pursuant to Rule 29 on the following counsel for the Petitioner and other Respondents:
RESPONDENTS LSI
CORPORATION AND AVAGO
TECHNOLOGIES U.S. INC.:
Kristopher Lane Reed
Kilpatrick Townsend & Stockton LLP
1400 Wewatta St., Ste. 600
Denver, CO 80202
303-571-4000
kreed@kilpatricktownsend.com

PETITIONER:
Kevin K. Russell
Goldstein and Russell, P.C.
7475 Wisconsin Avenue
Suite 850
Bethesda, MD 20814
(202) 362-0636
krussell@goldsteinrussell.com
RESPONDENT GILEAD SCIENCES,
INC.:
Adam Karl Mortara
Bartlit Beck LLP
54 W. Hubbard Street
Chicago, IL 60654
773-750-7154
adam.mortara@bartlit-beck.com

This service was effected by depositing three copies of a Brief in Opposition in
an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 5th day of December 2019.

